                                              MINE SAFETY
                                              AND HEALTH
                                              ADMINISTRATION
Office of Inspector General—Office of Audit




                                              MSHA NEEDS TO IMPROVE CONTROLS
                                              OVER PERFORMANCE DATA




                                                               Date Issued: December 26, 2006
                                                               Report Number: 22-07-008-06-001
                                                       December 2006
U.S. Department of Labor
Office of Inspector General                            MSHA Needs to Improve Controls Over
Office of Audit                                        Performance Data

                                                       WHAT OIG FOUND
BRIEFLY…                                               Based on our audit, we could not determine the
                                                       completeness and reliability of the hours used in the
Highlights of Report Number: 22-07-008-06-001,         all-injury occurrence measured as part of
to the Assistant Secretary for Mine Safety and         Performance Goal 3.1A. MSHA could not ensure it
Health.                                                had accounted of all hours worked since MSHA did
                                                       not require mine operators to submit documentation
                                                       that supports the amount of contractor hours
WHY READ THE REPORT                                    worked. As part of the normal inspection process,
The Mine Safety and Health Administration (MSHA)       MSHA inspectors normally do not verify reported
supervises and enforces workplace safety and           employee hours to payroll records, although they
health in surface and underground mining               perform some cursory reviews to determine the
operations in accordance with the Federal Mine         hours reported by the mine operator appear
Safety and Health Act of 1977 (P.L. 95-164). MSHA      reasonable based on the size of the mine.
conducts investigations, inspections, enforcement
and reporting programs for all mining operations. In   In addition, our audit found MSHA did not have
addition, MSHA conducts respirable dust programs       complete and reliable data to support the testing to
and workplace noise programs for both the Coal and     ensure noise exposure did not exceed established
Metal and Nonmetal mining industries.                  limits that it reported as part of Performance Goal
                                                       3.1B. MSHA recorded the data from noise sample
                                                       results in the Metal Nonmetal Mine Management
                                                       Information System ((MNMIS) and the Coal Mine
                                                       Safety and Health Information System (CMIS). We
WHY OIG DID THE AUDIT                                  found cases where the MSHA District or Field
                                                       Offices did not record the sample results and other
                                                       cases where the MSHA District or Field Offices did
We conducted our audit to determine the
                                                       not record the correct date of the sample results in
completeness and reliability of the CY 2003 data
                                                       these systems.
used to support the MSHA FY 2003 performance
goals 3.1A “Reduce the mine industry fatal injury
occurrence rate by 15 percent annually and 3.1B        WHAT OIG RECOMMENDED
“Reduce the all injury occurrence below the FY 2000    We recommended that the Assistant Secretary for
baseline by the end of FY 2005.” This was a 4-year     Mine Safety and Health require that:
goal and, for FY 2003, the target was a 17 percent
reduction. We conducted our audit at 17 MSHA               1) Mine operators report all hours worked for
locations.                                                    both employees and contractors to allow
                                                              verification that all data needed to support
                                                              the reported injuries and fatalities have been
                                                              included.
READ THE FULL REPORT                                       2) Mine operators submit or maintain, and mine
                                                              inspectors review as part of their normal
To view the report, including the scope,
                                                              inspection process, documentation that
methodology, and full agency response, go to:
                                                              supports the amounts of hours worked by
http://www.oig.dol.gov/public/reports/oa/200                  mine employees and contractors.
7/22-07-008-06-001.pdf                                     3) Controls be developed and put in place to
                                                              adhere to procedures that require
                                                              systematic and regular entry of noise
                                                              sample data into both the MNMIS and
                                                              CMIS.

                                                       MSHA disagreed with the recommendations one
                                                       and two. MSHA concurred in part with
                                                       recommendation three.
                                   MSHA NEEDS TO IMPROVE CONTROLS OVER PERFORMANCE DATA



Table of Contents
                                                                                                                    PAGE

EXECUTIVE SUMMARY ................................................................................................ 3


ASSISTANT INSPECTOR GENERAL’S REPORT ........................................................ 7


      Finding 1 – MSHA could not ensure mine operators and contractors
      provided all employment hours to support Performance Goal 3.1A ................. 9

      Finding 2 – MSHA did not have complete and reliable data to support
      the testing to ensure noise exposure did not exceed established limits........ 11


APPENDICES ............................................................................................................... 17

    A. Background ....................................................................................................... 19

    B. Objective, Scope, Methodology, and Criteria ................................................. 23

    C. Acronyms and Abbreviations........................................................................... 27

    D. Agency Response to Draft Report ................................................................... 29




U.S. Department of Labor—Office of Inspector General                                                                       1
Report Number: 22-07-008-06-001
MSHA NEEDS TO IMROVE CONTROLS OVER PERFORMANCE DATA




              PAGE HAS BEEN INTENTIONALLY LEFT BLANK




2                              U.S. Department of Labor—Office of Inspector General
                                                    Report Number: 22-07-008-06-001
                          MSHA NEEDS TO IMPROVE CONTROLS OVER PERFORMANCE DATA



Executive Summary
The Office of Inspector General (OIG) conducted an audit to determine the
completeness and reliability of Mine Safety and Health Administration (MSHA) calendar
year (CY) 2003 performance data. MSHA reports performance data on a fiscal year
basis in the Department of Labor’s (DOL) Annual Performance and Accountability
Report (PAR). MSHA compiled the data, computed, and reported the final results for
fiscal year 2003 in the DOL PAR as performance goals 3.1A and 3.1B.

FY 2003 performance goal 3.1A reported on MSHA’s efforts to reduce mine injuries and
fatalities, and performance goal 3.1B reported on MSHA’s efforts to reduce miners’
exposure to health hazards such as coal and silica dust and noise exposure. OIG relied
on CY 2003 data to prepare the CY 2003 Program Cost and Results Statement for
MSHA. The accuracy of the reported results for the performance goals relied on the
controls specifically designed and placed in operation by MSHA. Consequently, the
better the controls, the more the data can be relied on as being valid.


Results

Based on our audit of the results reported for Performance Goal 3.1A, we were able to
verify that injuries and fatalities included in the all-injury occurrence rate measured as
part of Performance Goal 3.1A were adequately supported. However, MSHA could not
ensure it had accounted for all hours worked since mine operators were not required to
submit documentation that supports the amount of contractor hours worked. In addition,
MSHA did not have adequate monitoring procedures in place to verify to source
documents the mine employee hours worked data submitted by mine operators. As a
result, we could not determine the completeness or reliability of the hours used in the
all-injury occurrence rate measured as part of Performance Goal 3.1A.

We were able to verify to source documents the data used to report the program results
for coal and silica dust standards reported as part of Performance Goal number 3.1B.
Based on the results of our testing, nothing came to our attention that caused us to
believe that the program results for coal and silica dust standards reported as part of
Performance Goal number 3.1B were not complete and reliable. However, MSHA did
not have complete and reliable data to support the testing to ensure noise exposure did
not exceed established limits, as reported as part of Performance Goal 3.1B.




U.S. Department of Labor—Office of Inspector General                                    3
Report Number: 22-07-008-06-001
MSHA NEEDS TO IMROVE CONTROLS OVER PERFORMANCE DATA

Recommendations

To improve the completeness and reliability of the Mine Safety and Health
Administration’s performance data, we recommend the Assistant Secretary for Mine
Safety and Health require that:

    1) Mine operators report all hours worked for both employees and contractors to
       allow verification that all data needed to support the reported injuries and
       fatalities have been included.
    2) Mine operators submit or maintain, and mine inspectors review as part of their
       normal inspection process, documentation that supports the amount of hours
       worked by mine employees and contractors.
    3) Controls be developed and put in place to adhere to procedures that require
       systematic and regular entry of noise sample data into both the Metal Nonmetal
       Management Information System (MNMIS) and into the Coal Mining Safety and
       Health Information System (CMIS).

Agency Response

In response to our draft report, the Acting Assistant Secretary for Mine Safety and
Health stated that the draft contained substantive and methodological errors, and also
contained findings and recommendations that did not consider relevant Office of
Management and Budget guidance concerning performance data, nor the net costs
versus benefits of implementing our recommendations to their inspection program and
the miners they serve. MSHA did not concur with recommendations one and two.
MSHA agreed that it does not capture all work hours performed at all contractor
operations but does not believe this negates the validity of its performance data. MSHA
stated it has a long standing policy of excluding employment hours worked by
contractors who perform “low hazard” mining activities. MSHA plans to include a
statement in the PAR that low hazard mining activities are exempt from reporting
employment hours and injury information. MSHA also stated mine operators submit
and maintain and inspectors review documentation that supports the amount of hours
worked by mine employees. MSHA believes its performance data is complete and
reliable because OMB Circular A-11 states “Performance data need not be perfect to be
reliable, particularly if the cost and effort to secure the best performance data possible
will exceed the value of any data so obtained.”

MSHA concurred in part with recommendation 3 and is in the process of revising the
Metal and Nonmetal General Inspection Procedures Handbook to ensure all data
recorded in the “MSHA database” is accurate and can be retrieved. MSHA supervisors
and managers will hold inspectors responsible for this verification. However, MSHA
stated that the OIG report does not note what, if any, additional controls may be
needed.

The agency response is included in its entirety at Appendix D.


4                                      U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 22-07-008-06-001
                          MSHA NEEDS TO IMPROVE CONTROLS OVER PERFORMANCE DATA

OIG Conclusion

We considered OMB guidance and the costs versus the benefits of implementing the
recommendations. We do not agree with MSHA’s response to our recommendations
one and two. MSHA’s plan to inform stakeholders, in the PAR, that it excludes
employment hours for low hazard mining activities would be effective if the approximate
numbers of hours were known and were immaterial to the amount of hours reported.
Conversely, if the hours associated with those low hazard mining activities were
material to the total hours, then the reported data would be incomplete and the measure
inaccurate and therefore unreliable. OMB Circular A-11, which implements the
Government Performance Results Act (GPRA), requires an assessment of the
completeness and reliability of performance data. GPRA also requires that
performance plans describe the means used to verify and validate measured values.
We believe this implies some type of monitoring control should be in place to ensure
completeness and reliability of performance data. We also believe that it is up to MSHA
to analyze and determine the cost effectiveness of these two recommendations. We
consider recommendations one and two unresolved pending the development of a
corrective action plan to implement monitoring controls to ensure hours worked reported
by mine operator employees and contractors are complete and reliable.

We agree with MSHA’s planned corrective actions for recommendation 3 to provide the
additional controls needed to ensure noise sample data is entered regularly into the
MNMIS and CMIS database systems. MSHA also planned to include the additional
controls as revisions to the Metal and Nonmetal General Inspection Procedures
Handbook. MSHA should also make the same revisions to the Coal Mine Inspection
Procedures handbook so the inspection procedures are consistent with the general
inspection procedures for Metal and Nonmetal Mines. The recommendation remains
unresolved until MSHA agrees to revise the Coal Mine Inspection Procedures
handbook.




U.S. Department of Labor—Office of Inspector General                                   5
Report Number: 22-07-008-06-001
MSHA NEEDS TO IMROVE CONTROLS OVER PERFORMANCE DATA




              PAGE HAS BEEN INTENTIONALLY LEFT BLANK




6                              U.S. Department of Labor—Office of Inspector General
                                                    Report Number: 22-07-008-06-001
                            MSHA NEEDS TO IMPROVE CONTROLS OVER PERFORMANCE DATA

U.S. Department of Labor                          Office of Inspector General
                                                  Washington, DC 20210




                           Assistant Inspector General’s Report


Mr. Richard E. Stickler
Assistant Secretary for
 Mine Safety and Health
U.S. Department of Labor
1100 Wilson Boulevard
Arlington, VA 22209-3939


The Office of Inspector General (OIG) conducted an audit to determine the
completeness and reliability of Mine Safety and Health Administration (MSHA) calendar
year (CY) 2003 performance data. MSHA reports performance data on a fiscal year
basis in the Department of Labor’s (DOL) Annual Performance and Accountability
Report (PAR). MSHA compiled the data, computed, and reported the final results for
fiscal year 2003 in the DOL PAR as performance goals 3.1A and 3.1B.1

Performance Goal 3.1A reported on MSHA’s efforts to reduce mine injuries and
fatalities and performance for that goal was measured and reported against two
performance indicators:

    ¾ Reduce the mine industry fatal injury occurrence rate by 15 percent annually, and

    ¾ Reduce the all injury occurrence rate 50 percent below the FY 2000 baseline by
      the end of FY 2005. This was a 4-year goal and for FY 2003, the target was a 17
      percent reduction.

Performance Goal 3.1B reported on MSHA’s efforts to reduce miners’ exposure to
health hazards such as coal and silica dust and noise exposure, and performance for
that goal was measured and reported against three performance indicators:

    ¾ Reduce the percentage of results of respirable coal dust samples exceeding the
      applicable standards by 5 percent for designated occupations in coal mines;




1
 Prior to FY 2005, performance goals for the Office of Safety and Health Administration (OSHA) and
MSHA were both differently defined and separately reported. Starting in FY 2005, both OSHA and MSHA
separately reported performance achievements using the same performance goals, 3.1A and 3.1B.
U.S. Department of Labor—Office of Inspector General                                               7
Report Number: 22-07-008-06-001
MSHA NEEDS TO IMROVE CONTROLS OVER PERFORMANCE DATA

    ¾ Reduce the percentage of silica dust samples in metal and nonmetal mines
      exceeding the applicable standard by 5 percent for designated high-risk
      occupations; and

    ¾ Reduce the percentage of noise exposure above the citation level in all mines by
      5 percent.

Performance Goals 3.1A and 3.1B Program performance data to support performance
goals 3.1A and 3.1B were collected by MSHA’s Directorate of Program Evaluation and
Information Resources, Office of Injury and Employment Information (OIEI). MSHA
compiled the data, computed, and reported the final results in the DOL Annual
Performance and Accountability Report.

Performance Goal 3.1A MSHA used data obtained from the MSHA Form 7000-1 “Mine
Accident, Injury and Illness Report” submitted by mine operators after every accident or
illness diagnosis, and MSHA Form 7000-2 “Quarterly Mine Employment and Production
Report” to report on performance goal 3.1A. MSHA’s OIEI maintains an electronic
database that accounts for all MSHA 7000-1 and 7000-2 forms.2

We audited information collected on MSHA Forms 7000-1 and 7000-2, which were used
to report the results for performance goal 3.1A. We audited a total of 202 MSHA Forms
7000-1. Of the 10 codes listed on MSHA Form 7000-1, MSHA used accidents coded 1
through 6 to determine if it had achieved the performance goal. The six codes used
were: (1) accident where a fatality occurred; (2) accident where a permanent total and
permanent partial disability occurred; (3) accident that results in days away from work;
(4) accident that results in days away from work and restricted activity upon return to
work; (5) accident that results in restricted activity upon return to work, and (6) accidents
that result in no days away from work and no restricted activities.

We were able to verify that injury, illness and fatality data included in the all-injury
occurrence rate measured as part of Performance Goal 3.1A were adequately
supported by the MSHA Forms 7000-1 that were submitted by mine operators. In
addition, MSHA had adequate monitoring procedures over the information contained on
the Forms 7000-1. However, we concluded MSHA could not ensure it had accounted
for all hours worked since 1) MSHA did not have adequate monitoring procedures in
place concerning the employee hours worked data submitted by mine operators on
MSHA Form 7000-2 and 2) mine operators were not required to report contractor hours
on MSHA Form 7000-2 nor to maintain or submit documentation that supports the
amount of contractor hours worked. Proper reporting of employee and contractor hours
was critical because the all-injury occurrence rate in Performance Goal 3.1A measured
injuries and fatalities per 200,000 hours. As a result, MSHA could not substantiate it


2
 During our audit, both Coal and Metal used a separate management information system (MIS) for data
entry and reporting of MSHA Form 7000-1 and 7000-2 data. By the end of our audit, MSHA combined
the data entry and reporting for its enforcement programs into one common information platform – the
MSHA Standardized Information System (MSIS).

8                                           U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 22-07-008-06-001
                          MSHA NEEDS TO IMPROVE CONTROLS OVER PERFORMANCE DATA

had complete and accurate hours to calculate the all injury occurrence rate reported as
part of Performance Goal 3.1A.

Performance Goal 3.1B MSHA used dust and noise samples collected by MSHA
inspectors as part of their routine inspections to report on performance goal 3.1B. The
Federal Coal Mine Health and Safety Act of 1969 (P.L. 91-173) requires mine operators
to conduct on-shift examinations to ensure coal dust concentrations do not exceed
applicable standards. The Federal Mine Safety and Health Act (P.L. 95-164) added
requirements for metal and nonmetal mine operators to comply with applicable
standards related to silica dust concentrations. P.L. 95-164 also added that operators
must ensure that noise exposure does not exceed established limits.

We audited the information the District and Field Offices maintained for both dust and
noise samples to determine if MSHA had complete and reliable data to support
Performance Goal 3.1B.

We were able to verify data used to report program results for coal and silica dust
standards reported as part of Performance Goal number 3.1B. Based on the results of
our testing, nothing came to our attention that caused us to believe that the program
results for coal and silica dust standards reported as part of Performance Goal number
3.1B was not complete and reliable.

However, we concluded MSHA did not have complete and reliable data to support
testing to ensure noise exposure did not exceed established limits. In a number of
cases, MSHA District or Field Offices did not record samples in the Metal Nonmetal
Mine Management Information System (MNMIS) or the Coal Mine Safety and Health
Information System. In other cases, sample results were recorded under dates that did
not match the dates when MSHA inspectors conducted the samples. Since the MSHA
District and Field Offices did not correctly record each noise sample, MSHA could not
validate that it provided the most accurate information used for the noise standards
included in the performance goal.

Our audit was conducted in accordance with Government Auditing Standards for
performance audits. Appendix B provides additional information on the audit objective,
scope, criteria, and methodology.

Objective – Is CY 2003 GPRA performance data for MSHA complete and reliable?

Finding 1 – MSHA could not ensure mine operators and contractors provided all
employment hours to support Performance Goal 3.1A

MSHA did not have adequate monitoring procedures in place to verify the accuracy of
the employee hour data used to calculate the injury, illness, and fatality rates per
200,000 hours were accurate. As part of their normal inspection process, MSHA
inspectors do not normally verify employee hours reported to MSHA with supporting

U.S. Department of Labor—Office of Inspector General                                      9
Report Number: 22-07-008-06-001
MSHA NEEDS TO IMROVE CONTROLS OVER PERFORMANCE DATA

documentation, such as summary payroll records. In addition, MSHA could not ensure
it had accounted for all hours worked since mine operators were not required to report
contractor hours on MSHA Form 7000-2 nor to maintain or submit documentation that
supported the amount of contractor hours worked. As a result, MSHA could not
substantiate the completeness and accuracy of employee and contractor hours used to
calculate the all injury occurrence rate reported as part of Performance Goal 3.1A.
Mine operators and contractors must submit MSHA Form 7000-2 on a quarterly basis to
report employment and production data, in accordance with Title, 30 Code of Federal
Regulations (CFR) Part 50. Contractors separately reported and submitted MSHA
Form 7000-2 for their employees in total, not by individual site. However, since mine
operators do not maintain documentation of hours worked by contractor, MSHA could
not verify contractor hours worked during mine inspections.

The MSHA Handbooks for Coal Mine (Handbook Number PH06-V-1) and Metal and
Nonmetal Mine (Handbook Number PH89-IV-2) Inspection Procedures did not require
mine inspectors to review documentation that supported each MSHA Form 7000-2 as
part of the normal inspection process. The MSHA Handbook for Coal Mine Inspection
Procedures only required mine inspectors to review MSHA Form 7000-2 “to determine if
they were maintained at the mine office nearest the mine and were submitted in a timely
manner.” The MSHA Handbook for Metal and Nonmetal Mine Inspection Procedures
did not mention any review of the MSHA Form 7000-2 as part of the normal inspection
process. MSHA inspectors normally do not verify reported employee hours to payroll
information maintained by the mine operator, although they may perform some cursory
reviews to determine if total employee hours on the MSHA Form 7000-2 appear
reasonable for the size of the mine. MSHA performs a more in-depth examination of
employee hours when they perform Part 50 reviews under the requirements of 30 CFR
Part 50. However, Part 50 reviews only occurred when 1) a mine has a chargeable
fatality 2) a mine has been nominated for a Sentinel of Safety Award or 3) at the
discretion of the MSHA District Office Manager. In at least one MSHA District Office, no
mines in the district had a PART 50 review performed in our audit period.

OMB Circular A-123 provides guidance on using the range of tools at the disposal of
agency managers to achieve desired program results and meet the requirements of the
Federal Managers’ Financial Integrity Act (FMFIA) of 1982. The FMFIA encompasses
accounting and administrative controls. Controls covered under OMB Circular A-123
include areas such as program, operational, administrative, accounting and financial
management. The Circular states:

      Transactions should be properly recorded, properly classified, and
      accounted for in order to prepare timely accounts and reliable financial
      information and other reports. The documentation for transactions,
      management controls, and other significant events must be clear and
      readily available for examination.

The Government Accountability Office (GAO) has developed standards for internal
control in the Federal Government. One of the five standards for internal control,


10                                     U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 22-07-008-06-001
                          MSHA NEEDS TO IMPROVE CONTROLS OVER PERFORMANCE DATA

according to the GAO Standards for Internal Control in the Federal Government, dated
November 1999, is “control activities.” An example of a control activity that is common
to all agencies is review and monitoring of performance measures and indicators.
Specifically per the GAO standard:

   Activities need to be established to monitor performance measures and indicators.
   These controls could call for comparisons and assessments relating different sets of
   data to one another so that analyses of the relationships can be made and
   appropriate actions taken. Controls should also be aimed at validating the propriety
   and integrity of both organizational and individual performance measures and
   indicators.

Since MSHA inspectors only performed detailed examinations of employee records
during PART 50 reviews and mine operators do not maintain contractor hours
documentation, MSHA cannot ensure employee hours submitted are accurate and that
all contractor hours have been submitted for each mine. As a result, MSHA could not
substantiate the completeness and accuracy of employee and contractor hours used to
calculate the all injury occurrence rate reported as part of Performance Goal 3.1A.

Finding 2 – MSHA did not have complete and reliable data to support the testing
to ensure noise exposure did not exceed established limits.

We were unable to verify that the data used by MSHA to ensure noise exposure did not
exceed established limits was accurate. MSHA recorded the sample results from its
noise exposure testing in the Metal Nonmetal Management Information System
(MNMIS) and the Coal Mining Safety and Health Information System (CMIS). In 133 of
389 cases reviewed, sample results were not recorded by the MSHA District or Field
Offices, or the dates of inspection MSHA recorded in the systems for the samples did
not match the dates the MSHA inspectors actually performed the samples for noise
exposure. Since the MSHA District and Field Offices did not correctly record each noise
sample, MSHA had no assurance that it used accurate information for the noise
standards included in the performance goal.

As stated in finding one, OMB required that Federal Executive departments and
agencies establish specific management controls that address the proper recording and
maintenance of documentation to support all transactions. The proper recording and
maintenance of documentation applies to transactions for financial and performance
information. OMB Bulletin 01-02 also requires that auditors of Federal Financial
Statements review and assure that Federal Executive departments and agencies
properly record, process, and summarize transactions and other data for performance
measures “in accordance with criteria stated by management.”

MSHA is in the process of revising the Metal and Nonmetal General Inspection
Procedures Handbook. In the section titled Off-Site Documentation, MSHA inserted a
sentence that states: “Inspectors are responsible for verifying that the data they have
reported has been entered into the MSHA database accurately and can be retrieved.”
U.S. Department of Labor—Office of Inspector General                                      11
Report Number: 22-07-008-06-001
MSHA NEEDS TO IMROVE CONTROLS OVER PERFORMANCE DATA

Inspectors will be held responsible for this verification by their supervisors and
managers.

Recommendations

To improve the completeness and reliability of the Mine Safety and Health
Administration’s performance data, we recommend the Assistant Secretary for Mine
Safety and Health require that:

     1) Mine operators report all hours worked for both employees and contractors to
        allow verification that all data needed to support the reported injuries and
        fatalities have been included.
     2) Mine operators submit or maintain, and mine inspectors review as part of their
        normal inspection process, documentation that supports the amount of hours
        worked by mine employees and contractors.
     3) Controls be developed and put in place to adhere to procedures that require
        systematic and regular entry of noise sample data into both the Metal Nonmetal
        Management Information System (MNMIS) and into the Coal Mining Safety and
        Health Information System (CMIS).

Agency Response

In response to our draft report, the Acting Assistant Secretary for Mine Safety and
Health stated that the draft contained substantive and methodological errors, and also
contained findings and recommendations that do not consider relevant Office of
Management and Budget guidance concerning performance data, nor the net costs
versus benefits to their inspection program and the miners they serve. MSHA did not
concur with recommendations one and two. MSHA concurred in part with
recommendation three.

MSHA did not concur with our finding number 1 that MSHA could not ensure mine
operators and contractors provided all employment hours to support Performance Goal
3.1A and MSHA did not concur with our recommendations. MSHA personnel agree that
they did not capture all work hours performed at all contractor operations; however, they
believed this did not negate the validity of MSHA’s performance data. MSHA stated that
they have a long standing policy of excluding employment hours worked by contractors
who perform “low hazard” mining activities and that their performance data is sufficient.
MSHA stated that they could better inform stakeholders by making a statement in the
Performance and Accountability Report (PAR) that contractors who perform “low
hazard” activities are exempt from reporting employment hours and injury information.

Additionally, MSHA stated that mine operators and contractors currently submit and
maintain, and that inspectors review as part of the inspection process, documentation
that supports the amount of hours worked by mine employees. MSHA stated that their
data is complete and reliable in compliance with OMB Circular A-11 because the


12                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 22-07-008-06-001
                          MSHA NEEDS TO IMPROVE CONTROLS OVER PERFORMANCE DATA

Circular states, “Performance data need not be perfect to be reliable, particularly if the
cost and effort to secure the best performance data possible will exceed the value of
any data so obtained.” MSHA also stated, based on its understanding, that compliance
with OMB Circular A-123 pertains mainly to financial management as opposed to
GPRA. Further, MSHA stated that they have a complete listing of contractors based on
their reporting requirements, and that controls and monitoring procedures in place to
ensure this were not discussed in the report.

In response to our finding number 2 that MSHA did not have complete and reliable data
to support the testing to ensure noise exposure did not exceed established limits, MSHA
concurred in part and stated that they are in the process of revising the Metal and
Nonmetal General Inspection Procedures Handbook. In the section titled Off-Site
Documentation, they have inserted a sentence that states: “Inspectors are responsible
for verifying that the data they have reported has been entered into the MSHA database
accurately and can be retrieved.” Inspectors will be held responsible for this verification
by their supervisors and managers. However, MSHA additionally stated that the OIG
report did not note what, if any, additional controls may be needed and the OIG report
did not identify with any precision the scope of any problems found.

MSHA also wanted the OIG to make it clear that they do not report calendar year results
for GPRA purposes. Performance goals 3.1A and 3.1B were reported by fiscal year in
the Department’s Annual Performance and Accountability Reports (PAR). MSHA also
stated that Office of Injury and Employment Information (OIEI) should be referred to as
OIEI, and that OIEI performs the data entry for 7000-1 and 7000-2 data, and the term
“inspection” is erroneously used in the report. The word “sample” should be used in its
place. The response is included in its entirety in Appendix D.

OIG Conclusion

MSHA’s response did not address our finding regarding the lack of monitoring controls
in place. As stated in the report, MSHA did not have controls in place to verify mine
operators and contractors are accurately reporting employee and contractor hours
worked, with the exception of Part 50 reviews, which are not common.

MSHA’s plan to include a statement in the PAR informing the stakeholders that the
performance data excludes information relating to “low hazard” mining activities, would
be effective if the approximate amount of hours related to those activities were known
and were immaterial to the amount of hours being reported. Conversely, if the amount
of hours associated with those activities were material to the total hours, then the
reported data would be incomplete and the measure inaccurate and therefore
unreliable. MSHA has not provided OIG with any information to indicate that MSHA has
monitoring controls in place to identify the amount of hours worked by independent
contractors related to low hazard activities.

MSHA responded that mine operators and contractors currently submit and maintain
documentation. However, the results of our audit show that only total hours worked are
U.S. Department of Labor—Office of Inspector General                                    13
Report Number: 22-07-008-06-001
MSHA NEEDS TO IMROVE CONTROLS OVER PERFORMANCE DATA

submitted, not documentation supporting those hours worked. Also, documentation of
contractor hours worked was not maintained by the mine operator, so MSHA cannot
review documentation of contractor work hours during inspections. We reviewed the
monitoring procedures (audits of non-respondent lists and end-of-year data mailer
verifications) provided by MSHA, but none of these procedures address our concerns
regarding the accuracy of the reported employee and contractor hours. MSHA stated
that they are in compliance with the data completeness and reliability requirements of
OMB Circular A-11, and noted that efforts to ensure reliability of data should be cost
effective. MSHA has the responsibility of providing the analysis to validate their
argument as it pertains to OMB Circular A-11. Further, MSHA attested that the
performance data provided for presentation in the FY 2003 and the FY 2004 Annual
Performance and Accountability Reports were complete and reliable. However, MSHA
has not provided any justification for how they made their determination of reliability.

OMB A-11 is not the sole criteria that apply to completeness and reliability of reported
performance data. OMB A-123 applies to the monitoring of all data. As such, it sets
forth guidance for agency financial and program managers to implement internal
controls to achieve results and to safeguard the integrity of their programs. Additionally,
OMB A-123 provides guidance on using the range of tools at the disposal of agency
managers to meet the requirements of the Federal Managers’ Financial Integrity Act
(FMFIA) of 1982. The FMFIA encompasses accounting and administrative controls.
Controls covered under OMB Circular A-123 include areas such as program,
operational and administrative areas, accounting, and financial management. OMB
A-123 also states “The three objectives of internal control are to ensure the
effectiveness and efficiency of operations, reliability of financial reporting, and
compliance with applicable laws and regulations.”

The final report has been modified to more clearly state that Performance goals 3.1A
and 3.1B were reported by fiscal year in the Department’s Annual Performance and
Accountability Report. The report was also modified to reflect the correct acronym for
MSHA’s Office of Injury and Employment Information as OIEI. Where applicable, we
modified the report to substitute the word “sample” for the word “inspection.” We also
inserted the specific number of cases we reviewed and the sample results we reported
regarding noise exposure.

Recommendations one and two are considered unresolved pending receipt of a
corrective action plan to implement monitoring controls to ensure hours worked reported
by mine operator employees and contractors are complete and reliable.

We agree with MSHA’s planned corrective actions for recommendation 3 to provide the
additional controls needed to ensure noise sample data is entered regularly into the
MNMIS and CMIS database systems. MSHA also planned to include the additional
controls as revisions to the Metal and Nonmetal General Inspection Procedures
Handbook. MSHA should also make the same revisions to the Coal Mine Inspection
Procedures handbook so the inspection procedures are consistent with the general
inspection procedures for Metal and Nonmetal Mines. The recommendation remains


14                                      U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 22-07-008-06-001
                          MSHA NEEDS TO IMPROVE CONTROLS OVER PERFORMANCE DATA

unresolved until MSHA agrees to revise the Coal Mine Inspection Procedures
handbook.



Elliot P. Lewis
February 24, 2006




U.S. Department of Labor—Office of Inspector General                         15
Report Number: 22-07-008-06-001
MSHA NEEDS TO IMROVE CONTROLS OVER PERFORMANCE DATA




              PAGE HAS BEEN INTENTIONALLY LEFT BLANK




16                              U.S. Department of Labor—Office of Inspector General
                                                    Report Number: 22-07-008-06-001
                          MSHA NEEDS TO IMPROVE CONTROLS OVER PERFORMANCE DATA




Appendices




U.S. Department of Labor—Office of Inspector General                        17
Report Number: 22-07-008-06-001
MSHA NEEDS TO IMROVE CONTROLS OVER PERFORMANCE DATA




              PAGE HAS BEEN INTENTIONALLY LEFT BLANK




18                              U.S. Department of Labor—Office of Inspector General
                                                    Report Number: 22-07-008-06-001
                          MSHA NEEDS TO IMPROVE CONTROLS OVER PERFORMANCE DATA

                                                                           APPENDIX A
BACKGROUND


The Mine Safety and Health Administration (MSHA) supervises and enforces workplace
safety and health in surface and underground mining operations in accordance with the
Federal Mine Safety and Health Act of 1977 (P.L.95-164). MSHA conducts
investigations, enforcement, and reporting programs for all mining operations; respirable
dust programs in the coal and Metal and Nonmetal Industries; and a workplace noise
program in the in both industries. In Fiscal Year (FY) 2003, MSHA reported that it
served 319,241 miners who worked in over 14,000 mines. MSHA enforcement
programs have reduced annual mine fatalities from 122 miners in FY 1990 to 56 in FY
2003. In FY 2005, MSHA served approximately 329,000 miners. In FY 2005, mine
fatalities totaled 40 workers. The rate of injury occurrence has also declined
significantly since FY 1990.

Title 30, Code of Federal Regulations, Part 50 (Part 50) implements the provisions of
the Federal Mine Safety and Health Act of 1977. Part 50 requires mine operators to
immediately notify MSHA of “accidents; requires mine operators to investigate
accidents; and restricts disturbance of accident related areas.” Part 50 also requires
mine operators to file reports pertaining to all accidents, occupational injuries, and
occupational illnesses as well as employment and coal production data with MSHA.
Mine operators are required to prepare and file MSHA Forms 7000-1 “Mine Accident,
Injury and Illness Reports” and 7000-2 “Quarterly Mine Employment and Coal
Production Report.” Mine operators must also maintain copies of these reports at the
relevant mine offices.

The Federal Mine Safety and Health Act of 1977 requires MSHA to inspect underground
mines four times and surface mines twice per year. Mine Inspectors use inspections to
identify safety violations, that if not corrected by the mine operator, could subject the
mine’s employees to harm or injury. As part of their annual inspection process, mine
inspectors review and ensure that mine operators have on file all MSHA Form 7000-1s.
Mine inspectors are not required to review medical documentation that supports MSHA
Form 7000-1. The inspectors review the MSHA 7000-1 forms, at the mine being
inspected, to compare the information contained on the forms with that submitted to
MSHA. Information obtained from the MSHA 7000-1 forms are compared to information
obtained from the mine operators and their employees to determine if events were
properly reported. Mine inspectors also review the MSHA 7000-2 forms to determine if
they were maintained at the mine office nearest to the mine, and that they were
submitted in a timely manner. In most cases, as part of MSHA’s normal inspection
process, mine inspectors do not review source documents to verify employment data
reported on MSHA Form 7000-2.

Part 50 does include a review that can supplement the normal inspection process
required of MSHA. MSHA inspectors can elect to examine the documentation the mine
operator maintains to support MSHA Form 7000-2. MSHA only performs Part 50


U.S. Department of Labor—Office of Inspector General                                     19
Report Number: 22-07-008-06-001
MSHA NEEDS TO IMROVE CONTROLS OVER PERFORMANCE DATA

reviews at the discretion of the district manager, when a mine incurs a chargeable
fatality or if a mine has been nominated for a Sentinel of Safety Award. In FY 2003, 8
mines won while 32 mines received runner-up for Sentinel of Safety Awards.

MSHA uses the data recorded on MSHA Forms 7000-1 and 7000-2 to determine the
fatality and all injury occurrence rates reported for Performance Goal 3.1A.
Performance Goal 3.1A reported on MSHA’s efforts to reduce mine fatalities and
injuries. From these forms, MSHA determined the fatality and injury occurrence rates
per 200,000 production hours worked. During our audit period (FY 2003), MSHA
provided data that showed DOL did not achieve Performance Goal 3.1A since the “all
injury” incidence rate declined by 7.8 percent and the fatal injury rate only decreased by
9.6 percent. In FY 2004, MSHA again provided data that showed DOL did not achieve
the performance goal since the target to reduce the “all injury” incidence rate was not
met. However, DOL reported that it achieved the target to reduce the fatality injury
incidence rate. Performance goals 3.1A and 3.1 B have since been changed to include
indicator achievements for both MSHA and OSHA.

The Federal Coal Mine Health and Safety Act of 1969 (P.L. 91-173) requires mine
operators conduct on-shift examination to ensure coal dust concentrations do not
exceed applicable standards. The Federal Mine Safety and Health Act (P.L. 95-164)
also added requirements metal and nonmetal operators must comply with related to
silica dust concentrations. MSHA has responsibility to determine if the mine operators
comply with these standards. MSHA samples underground mines every 6 and surface
mines every 3 months. While at the mine, MSHA Authorized and Register (AR)
Inspectors use an apparatus that includes a pump and filter cassette encased in a
tamper proof container. The apparatus, through the use of the pump, draws sampled
air through the filter to collect air-born dust particles. MSHA AR Inspectors collect and
weigh the filters and send them in securely taped containers to the Respirable Dust
Laboratory in Pittsburgh, PA. MSHA District Offices maintain a copy of the dust data
card that the AR inspectors submit with the samples. The Respirable Dust Laboratory
test the samples and enter the sample results into the Laboratory Information
Management System (LIMS); which is linked to the Coal Mining Safety and Health
Information System (CMIS) and the Metal Nonmetals Mining Safety and Health
Information System (MNMIS) . The systems will generate a report for each sample and
each report contains calculations of each sample’s individual dust concentration. MSHA
cites the operator for noncompliance if the dust concentration exceeds the applicable
standard.

P.L. 95-164 also added that all mine operators must comply with noise exposure
standards. MSHA inspectors fit selected mine employees with a device called a noise
dosimeter that measures the amount of noise the employees have been exposed during
the shift. MSHA inspectors start the noise dosimeters, accompany the test subjects to
their workstations in the mines, and monitor the sampling process during their shifts.
Once the mine employees have completed their shifts, MSHA inspectors remove the
devices, unseal them, and enter a code to retrieve the noise environment assessments.
Noise standards are fixed at 133 percent of the maximum allowable noise exposure


20                                      U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 22-07-008-06-001
                          MSHA NEEDS TO IMPROVE CONTROLS OVER PERFORMANCE DATA

limit. MSHA inspectors cite mine operators for noise exposure over this limit. MSHA
inspectors deliver by hand the test results to their supervisors and the Health Clerks
located in the MSHA field Offices. The Health Clerks enter the data from the noise
samples into the Mining Information System (MIS) and send copies to the responsible
district offices.

In the FY 2003 DOL Performance and Accountability Report, MSHA provided
information that showed it achieved Performance Goal 3.1B. Compliance with coal
dust, silica dust, and noise standards improved 27, 29, and 44 percent from the
established baseline levels. Coal Mine dust was reduced from a FY 2002 baseline of
15 percent of samples exceeding the regulatory standard to 11 percent in FY 2003.
Silica Dust was reduced from a FY 2002 baseline of 9 percent exceeding the regulatory
standard to 6 percent in FY 2003. Finally, noise was reduced 5.2 percent from FY
2000-2001 baseline. MSHA showed that it continued to achieve Performance Goal
3.1B in the FY 2004 DOL Performance and Accountability Report. Compliance with
coal dust, silica dust, and noise standards improved 30, 34 and 55 percent from
baselines established from FYs 2000-2002.




U.S. Department of Labor—Office of Inspector General                                     21
Report Number: 22-07-008-06-001
MSHA NEEDS TO IMROVE CONTROLS OVER PERFORMANCE DATA




              PAGE HAS BEEN INTENTIONALLY LEFT BLANK




22                              U.S. Department of Labor—Office of Inspector General
                                                    Report Number: 22-07-008-06-001
                           MSHA NEEDS TO IMPROVE CONTROLS OVER PERFORMANCE DATA

                           APPENDIX B
OBJECTIVE, SCOPE, METHODOLOGY, AND CRITERIA

Objective

Our audit objective was to determine the completeness and reliability of CY 2003 data
reported by MSHA in the Department of Labor (DOL) Annual Performance and
Accountability Report as performance goals 3.1A and 3.1B.

Scope

We conducted our performance audit in accordance with Government Auditing
Standards issued by the Comptroller General of the United States and included such
tests as we considered necessary to satisfy the audit objectives. A performance audit
requires obtaining an understanding of internal controls considered significant to the
audit objectives and testing compliance with significant laws, regulations, and other
compliance requirements. In order to plan our performance audit, we considered
whether internal controls significant to the audit were properly designed and placed in
operation.

We selected MSHA data from CY 2003 for our review and the scope of our audit
included a determination of the completeness and reliability of CY 2003 data used to
support the MSHA FY 2003 performance goals 3.1A and 3.1B.

We audited data in two program areas:

   ¾ Coal Mine Safety and Health; and

   ¾ Metal and Nonmetal Safety and Health

The Coal Mine Safety and Health Organization consists of 11 districts with a total of 65
field offices. The Metal and Nonmetal Safety and Health Organization consists of 6
district offices and 47 field offices and field duty stations located throughout the United
States and Puerto Rico.

Methodology

We conducted our audit at 17 locations. For the Coal Mine Safety and Health
Organization, we randomly selected 3 of the 11 district offices for review. District offices
visited included District 2 (Hunker, Pennsylvania), District 3 (Morgantown, West
Virginia) and District 9 (Denver, Colorado). In Districts 2 and 3, we also randomly
selected six field offices for review within the selected district offices. These field offices
included:

   ¾ Ruff Creek, PA

U.S. Department of Labor—Office of Inspector General                                        23
Report Number: 22-07-008-06-001
MSHA NEEDS TO IMROVE CONTROLS OVER PERFORMANCE DATA

     ¾   Indiana, PA
     ¾   Johnstown, PA
     ¾   Morgantown, WV3
     ¾   Oakland, MD
     ¾   Bridgeport, WV

For the Metal Nonmetal Safety Organization, we randomly selected three of the six
district offices for review. District Offices visited included Rocky Mountain (Denver,
CO), Western (Vacaville, California), and Northeastern (Warrendale, PA). Within those
three district offices, we also visited four field offices, which included:

     ¾   Denver, CO4
     ¾   Vacaville, CA5
     ¾   Warrendale, PA6
     ¾   Charlottesville, VA

In addition to the district and field offices mentioned above, we visited the Bruceton
Safety and Health Technology Center located in Pittsburgh, PA. Bruceton processes
and reports the results from dust samples taken as part of the inspection process for
coal and metal and nonmetal inspections.

In accordance with the Federal Mine Safety and Health Act of 1977, MSHA is required
to inspect underground mines four times and surface mines twice per year. Our sample
of Coal Mine Safety and Health inspections was derived from a universe of 4,372 coal
inspections and 8,788 noise samples conducted in CY 2003. We judgmentally selected
30 coal mine inspections for collection of coal dust samples at four of the coal six field
offices we visited (Ruff Creek PA, Indiana, PA, Johnstown, PA and Morgantown, WV7).
We also judgmentally selected 202 noise samples collectively performed by each of the
six field offices we visited. In addition, our sample of Metal and Nonmetal Safety and
Health inspections was taken from a universe of 4,924 inspections conducted in CY
2003. We judgmentally selected 131 silica dust samples and 187 noise samples
collectively performed by each of the four field offices we visited.

We obtained sample source documents for the Accidents/Illness/Injury/Fatalities
Program, the Coal Mine Safety and Health Organization, and the Metal Nonmetal Mine
Safety and Health Organization. The Coal and Metal Nonmetal Mine Safety and Health
Organizations share dust exposure, noise exposure, and lost production data. We
obtained the following source data documents:




3
 Coal Mine Health and Safety District 2 and the Morgantown, WV Field Offices are in the same location.
4
 Rocky Mountain Metal Nonmetal Safety District and Denver, CO Field Offices are in the same location.
5
 Western Metal Nonmetal Safety District and Vacaville, CA Field Offices are in the same location.
6
 Northeastern Metal Nonmetal Safety District and Warrendale, PA Field Offices are in the same location.
7
  Coal Dust Inspection records for Oakland, WV and Bridgeport, WV field offices are maintained in the
Morgantown, WV Coal Mine Health and Safety District Office.

24                                            U.S. Department of Labor—Office of Inspector General
                                                                  Report Number: 22-07-008-06-001
                          MSHA NEEDS TO IMPROVE CONTROLS OVER PERFORMANCE DATA

   ¾ PART 50 Accident, Illness, Injury, and Fatality forms (MSHA, Form 7000-1)
     available in MSHA District Offices

   ¾ Dust Sample data cards used as reporting documents for the Coal Mine and
     Metal and Nonmetal Mine Dust Exposure programs available at District Offices,
     and the MSHA Laboratory in Pittsburgh, Pennsylvania

   ¾ Noise Sample data cards used as reporting documents for the Coal Mine and
     Metal and Nonmetal Mine inspection programs available at District Offices

   ¾ Original MSHA Form 7000-2 reports of coal mine production and worked hours
     available at District Offices

We compared the data from the above sources to the electronic database that
maintains Form 7000-1 and 7000-2 (injury and production data) and the Coal Mine
Information System (CMIS) and the Metal and Nonmetal Information System (MNMIS)
for dust and noise standards.

We interviewed MSHA personnel and conducted a walk-through of how program
personnel and computer systems authorize, collect, record, and process reported data
for performance goals 3.1A and 3.1B. We obtained an understanding of the flow of data
from origination to reporting of data by National Office. We also gained an
understanding of the internal control procedures in place to ensure completeness and
reliability of the reported data. Internal control weaknesses noted from our testing of
controls are discussed in Findings 1 and 2 of this report.

Criteria

The main criteria that governed the work performed was as follows:

   ¾ OMB A-123, which requires agency managers to incorporate control strategies,
     plans, guidance and procedures that govern their program’s operations

   ¾ Title 30, Code of Federal Regulations, Part 50, which defines the accident, injury,
     illness, employment, and production reporting obligations to MSHA of mine
     operators working on mine properties

   ¾ Government Accountability Office (GAO) Standards for Internal Control in the
     Federal Government, November 1999




U.S. Department of Labor—Office of Inspector General                                  25
Report Number: 22-07-008-06-001
MSHA NEEDS TO IMROVE CONTROLS OVER PERFORMANCE DATA




              PAGE HAS BEEN INTENTIONALLY LEFT BLANK




26                              U.S. Department of Labor—Office of Inspector General
                                                    Report Number: 22-07-008-06-001
                          MSHA NEEDS TO IMPROVE CONTROLS OVER PERFORMANCE DATA

                                                                  APPENDIX C
ACRONYMS AND ABBREVIATIONS


AR            Authorized and Register
CFR           Code of Federal Regulations
CMIS          Coal Mining Safety and Health Information System
CY            Calendar Year
DOL           Department of Labor
FY            Fiscal Year
GAO           Government Accountability Office
GPRA          Government Performance and Results Act
LIMS          Laboratory Information Management System
MIS           Mining Information System
MMIS          Mine Management Information System
MNMIS         Metal Nonmetal Mine Management Information System
MSHA          Mine Safety and Health Administration
OIEI          Office of Injury and Employment Information
OIG           Office of Inspector General
OMB           Office of Management and Budget
PAR           Performance and Accountability Report
PL            Public Law




U.S. Department of Labor—Office of Inspector General                        27
Report Number: 22-07-008-06-001
MSHA NEEDS TO IMROVE CONTROLS OVER PERFORMANCE DATA




              PAGE HAS BEEN INTENTIONALLY LEFT BLANK




28                              U.S. Department of Labor—Office of Inspector General
                                                    Report Number: 22-07-008-06-001
                          MSHA NEEDS TO IMPROVE CONTROLS OVER PERFORMANCE DATA

                          APPENDIX D
AGENCY RESPONSE TO DRAFT REPORT




U.S. Department of Labor—Office of Inspector General                        29
Report Number: 22-07-008-06-001
MSHA NEEDS TO IMROVE CONTROLS OVER PERFORMANCE DATA




30                              U.S. Department of Labor—Office of Inspector General
                                                    Report Number: 22-07-008-06-001
                          MSHA NEEDS TO IMPROVE CONTROLS OVER PERFORMANCE DATA




U.S. Department of Labor—Office of Inspector General                        31
Report Number: 22-07-008-06-001
MSHA NEEDS TO IMROVE CONTROLS OVER PERFORMANCE DATA




32                              U.S. Department of Labor—Office of Inspector General
                                                    Report Number: 22-07-008-06-001
                          MSHA NEEDS TO IMPROVE CONTROLS OVER PERFORMANCE DATA




U.S. Department of Labor—Office of Inspector General                        33
Report Number: 22-07-008-06-001
MSHA NEEDS TO IMROVE CONTROLS OVER PERFORMANCE DATA




34                              U.S. Department of Labor—Office of Inspector General
                                                    Report Number: 22-07-008-06-001
                          MSHA NEEDS TO IMPROVE CONTROLS OVER PERFORMANCE DATA




U.S. Department of Labor—Office of Inspector General                        35
Report Number: 22-07-008-06-001
